              OFFICE OF
              IN SPECTOR GENERAL
              U.S.DEPARTMENT OF THE INTERIOR


                                                                                            September 12, 2014
Memorandum

To:            Douglas Glenn
               Director, Office of Financial Management

Attention:     Eric Eisenstein
               Division Chief, Internal Control and Audit Follow-up
               Office of Financial Management

From:          JeffCarlson ~~
               Director, En~.6d"its-Unit
               Office of Inspector General

Subject:       Verification Review of Recommendations for the Evaluation "Geothermal
               Royalties" (C-IN-MOA-0004-2009)
               Report No. CR-VS-MOA-0009-2014

       The Office oflnspector General has completed a verification review of the five
recommendations presented in the evaluation report "Geothermal Royalties" (C-IN-MOA-0004-
2009) issued March 9, 2010.

       The objective of this verification review was to determine whether the recommendations
were implemented by the Office of Natural Resources Revenue (ONRR) as reported to the
Office of Financial Management (PFM) Office of Policy, Management and Budget.

       PFM reported to us that ONRR did not agree with Recommendation 1, but concurred
with and implemented the remaining four recommendations. Based on our review, we agree with
ONRR's response for non-concurrence for Recommendation 1 and consider this
recommendation resolved. Further, we concur that the remaining four recommendations are
resolved and implemented.

       We would like to thank ONRR for their assistance in providing the additional
information requested during our review. If you have any questions, please call me at 303-236-
9107.


cc:     Gregory Gould, Director, Office ofNatural Resources Revenue
        Gwenna Zacchini, Audit Liaison Officer, Office of Natural Resources Revenue
        Nancy Thomas, Audit Liaison Officer, Office of Financial Management
        Sharon Blake, Audit Liaison Officer, Office of Financial Management




                        Office of Audits, Inspections, and Evaluations   J   Lakewood, CO
